OFFICE OF INSPECTOR GENERAL
                      Audit Report
Fiscal Year 2010 Evaluation of Information Security at the
               Railroad Retirement Board




         This abstract summarizes the results of the subject audit. The
         full report includes information protected from disclosure and
         has been designated for limited distribution pursuant to
         5 U.S.C. § 552




                          Report No. 11-01
                         November 05, 2010




   RAILROAD RETIREMENT BOARD
                                    Report Abstract
 Fiscal Year 2010 Evaluation of Information Security At the Railroad Retirement Board


This abstract summarizes the results of the Office of Inspector General (DIG)
evaluation of Information Security for the Railroad Retirement Board (RRB) for
FY 2010.

The Federal Information Security Management Act of 2002 (FISMA) mandates that
agencies develop, document and implement an agency wide information security
program. FISMA establishes minimum requirements for the management of
information security.

The RRB's information system environment consists of three major application
systems and one general support system, each of which has been designated as a
moderate impact system in accordance with standards and guidance promulgated by
the National Institute of Standards and Technology (NIST).

The RRB has made significant progress in implementing an information security
program that meets the requirements of FISMA; yet a fully effective program has not
been achieved. For example, the RRB has taken action to address their significant
deficiency in access controls; but a significant deficiency remains in internal control
over the certification and accreditation review process of contractor deliverables.

During FY 2010, we observed that the RRB's program for ensuring agency servers
comply with required configuration settings is not fully effective, and the agency did not
complete external reports of all Category 1 security incidents. Previously identified
weaknesses in the areas of security plans, information security and privacy training,
periodic testing and evaluation, an effective remedial action process, continuity of
operations, the inventory of systems, risk assessment, and privacy continue to exist.
Also, although the agency addressed the significant deficiency in access controls,
weaknesses in that area still need to be addressed.

The RRB continues to address open audit recommendations pertaining to their
information security weaknesses.




The RRB's certification and accreditation program remains ineffective because of a
significant deficiency in the internal control structure over the review of contractor
deliverables. We found that actions taken to date would not allow for accurate and
reliable information consistently among individual reviewing offices over time. As a
result, the RRB cannot ensure that the information systems are operating at an
acceptable level of risk to agency operations, assets, or individuals. Since final
documentation supporting the results of the contractor's work is not expected to be
completed until early FY 2011, we were unable to fully assess this area of the RRB's
information security program.
                                   Report Abstract
Fiscal Year 2010 Evaluation of Information Security At the Railroad Retirement Board




The RRB continues to need improvement in implementing risk-based policies and
procedures that are comprehensive and effective in all areas of the agency's
information security and privacy programs. In FY 2010, the agency began conducting
routine vulnerability scans, but does not have a procedure to consider all relevant
factors when determining which vulnerabilities to remediate. We also observed that
the agency was not performing routine scans to ensure compliance with the agency
wide configuration policy settings. Risk-based policy and procedures serve to secure
the agency's information and information systems. Compliance scans for server
settings alert the agency where modifications need to be made to ensure a more
secure environment.




The RRB's incident handling and reporting program is generally effective in ensuring
the confidentiality, integrity, and availability of the agency's information and information
technology; however, we found that some incidents were not reported externally to the
United States Computer Emergency Readiness Team (US-CERT) as required.
Because the RRB misapplied OMB criteria for external breach notification, they failed
to report incidents of potential PII breaches to US-CERT. As a result, they are not in
full compliance with incident handling and reporting requirements.


We have made specific recommendations for corrective actions to address the
weaknesses identified in our audit. The Bureau of Information Services has agreed to
implement our recommendations to improve the information security program at the
RRB.
